No. 19-

IN THE

§§upreute Court of the Eittiteb btate0
HUNTER FUSSELL, an individual,
Petitioner,
v.
STATE OF LOUISIANA,
Respondent.

On Petition For A Writ Of Certiorari
To The Louisiana Supreme Court

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,570 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 8, 2020.

( d) /
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

